OFFICE OF INSPECTOR GENERAL
                     Audit Report
Audit of the General and Application Controls in the
Railroad Retirement Board’s Financial Management
                Information System


        This abstract summarizes the results of the subject audit.
        The full report includes information protected from disclosure
        and has been designated for limited distribution pursuant to
        5 U.S.C. § 552




                        Report No. 14-06
                         May 06, 2014




   RAILROAD RETIREMENT BOARD
                                REPORT ABSTRACT
                 Audit of the General and Application Controls in the
       Railroad Retirement Board’s Financial Management Information System


The Office of Inspector General for the Railroad Retirement Board (RRB) conducted an
audit of the general and application controls in the RRB’s financial management
information system. The objective of our audit was to assess the adequacy of the
controls.

Findings

Our audit determined that control deficiencies exist for the general and application
controls in the financial management information system at the RRB. Controls need to
be strengthened for physical access, logical application access, system development,
and for the system of record notices. Specifically, we determined that:

   •    Physical access control systems need updates.
   •    Physical access privileges need to be appropriate.
   •    Physical access tokens need to be safeguarded.
   •    Personnel exit procedures need to be consistently performed.
   •    Physical security training is needed.
   •    Physical security management documentation is needed.
   •    Supporting documentation is needed for logical access privileges granted.
   •    Logical access security table changes need monitoring.
   •    Certain types of systems development need monitoring.
   •    Supporting documentation is needed for emergency program changes.
   •    System of Records Notices need to be updated.

Recommendations

In total, we made 25 detailed recommendations to RRB management in order to
strengthen the control deficiencies related to physical access, logical application
access, system development, and system of record notices.

Management’s Responses

Agency Management concurs with all recommendations.
